<html>
<title> - Fighting Terror: Comparing Notes Across the Atlantic</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



115th Congress                                                                             Printed for the use of the                                                               Printed for the use of the
2nd Session                                                              Commission on Security and Cooperation in Europe
________________________________________________________________________________________________________________________                                                          


 
 Fighting Terror: Comparing Notes Across the Atlantic 

                         
  




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






December 4, 2018


                                                                              
                  
                                   Briefing of the
               Commission on Security and Cooperation in Europe
__________________________________________________________________________________________
                                    Washington: 2019                                                





              Commission on Security and Cooperation in Europe
                         234 Ford House Office Building
                              Washington, DC 20515
                                 202-225-1901
                             <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="afccdccccaefc2cec6c381c7c0dadcca81c8c0d9">[email&#160;protected]</a>
                            http://www.csce.gov
                               @HelsinkiComm
                                                          
                                                          
                                                          

                           Legislative Branch Commissioners

              HOUSE                                      SENATE
CHRISTOPHER H. SMITH, New Jersey               ROGER WICKER, Mississippi,
          Co-Chairman                          Chairman
ALCEE L. HASTINGS, Florida                     BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama                    JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas                      CORY GARDNER, Colorado
STEVE COHEN, Tennessee                         MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina                 JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois                       THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas                      TOM UDALL, New Mexico
GWEN MOORE, Wisconsin                          SHELDON WHITEHOUSE, Rhode Island
                        
          
            
          
          
          
          
          
          
          
          

                Executive Branch Commissioners

                    DEPARTMENT OF STATE
	           DEPARTMENT OF DEFENSE
                  DEPARTMENT OF COMMERCE

                          (II)




ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE

    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe (OSCE). The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.



ABOUT THE COMMISSION ON SECURITY AND COOPERATION IN EUROPE

    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.




                       Fighting Terror: Comparing
                        Notes Across the Atlantic


                            December 4, 2018


                                                                      Page
                                  
                              PARTICIPANTS

    Hon. Richard Hudson, Commissioner, Commission on Security and 
Cooperation in Europe ...............................................  1
    Alex Tiersky, Senior Policy Advisor, Commission on Security and 
Cooperation in Europe ...............................................  1
    Dr. Bruce Hoffman, Visiting Senior Fellow for Counterterrorism and 
Homeland Security, Council on Foreign Relations ...................... 4
    Leanne Erdberg, Director, Countering Violent Extremism, United 
States Institute of Peace ............................................ 6
Makis Voridis, Member of the Greek Parliament and Chairman of the
OSCE Parliamentary Assembly's Ad Hoc Committee on Countering Terrorism.9

                             (IV)





                     Fighting Terror: Comparing

                       Notes Across the Atlantic
                              ----------                              

                            December 4, 2018
                            

           Commission on Security and Cooperation in Europe
                           Washington, DC


    The briefing was held at 4:04 p.m. in Room 340, Cannon House Office 
Building, Washington, DC, Alex Tiersky, Senior Policy Advisor, 
Commission on Security and Cooperation in Europe, presiding.
    Panelists present: Hon. Richard Hudson, Commissioner, Commission on 
Security and Cooperation in Europe; Alex Tiersky, Senior Policy 
Advisor, Commission on Security and Cooperation in Europe; Dr. Bruce 
Hoffman, Visiting Senior Fellow for Counterterrorism and Homeland 
Security, Council on Foreign Relations; Leanne Erdberg, Director, 
Countering Violent Extremism, United States Institute of Peace; and 
Makis Voridis, Member of the Greek Parliament and Chairman of the OSCE 
Parliamentary Assembly's Ad Hoc Committee on Countering Terrorism.
    Mr. Tiersky. Ladies and gentlemen, if I could ask you to take your 
seats, we're going to begin.
    Great. Ladies and gentlemen, we're going to start with a few words 
from a member of the Helsinki Commission, Congressman Richard Hudson.
    Sir, thank you for being here today.
    Mr. Hudson. Thank you so much. And I'd like to welcome everyone 
here today to this U.S. Helsinki Commission briefing, ``Fighting 
Terror: Comparing Notes Across the Atlantic.''
    I think before we begin, though, I think it would be appropriate to 
acknowledge that while we meet here in the Cannon House Office 
Building, just over in the Capitol Rotunda, President George Herbert 
Walker Bush lies in state. And just want to acknowledge what a life, 
what an example of public service, a true patriot, family man, but also 
a diplomat and someone who was able to build international consensus, 
someone who operated on the international stage for many decades. We 
are just so thankful for the life and the service of President Bush.
    It's great to see this distinguished audience come together for 
what I believe is a very crucial discussion on cooperation across the 
Atlantic to counter the threat of terrorism.
    I want to welcome our panelists. We have excellent panelists here 
today.
    Bruce Hoffman from the Council on Foreign Relations, appreciate you 
making time to be here.
    Leanne Erdberg with the U.S. Institute of Peace, thank you.
    And last but certainly not least, my good friend and colleague 
Makis Voridis, a distinguished senior member of the Greek Parliament, 
who is here representing the Parliamentary Assembly for the 
Organization for Security and Cooperation in Europe. Mr. Voridis has 
traveled all the way from Greece to be here for this briefing. He is 
someone who has really mentored me and been a real role model for me in 
the OSCE Parliamentary Assembly. He's a real leader on this issue of 
combating terrorism, and really someone who has done a tremendous job 
bringing all sides together, finding consensus, looking for ways that 
we not reinvent the wheel, but that we as parliamentarians from Europe 
and other places can really add value to this fight to combat 
terrorism.
    So thank you, my friend, for being here.
    As many of you know, as a proud member of the U.S. Helsinki 
Commission, I've focused my engagement in a number of areas, including 
combating religious persecution, anti-Semitism, preventing human 
trafficking, and promoting economic cooperation and free speech. As 
part of my role as a Helsinki commissioner, I'm regularly called upon 
to represent the United States at the OSCE Parliamentary Assembly, 
which facilitates interparliamentary dialog among the 57 participating 
States. This assembly is a valuable forum where my congressional 
colleagues and our counterparts from countries ranging from Canada to 
Russia get together to have frequent discussions about the issues of 
the day and try to find common solutions that benefit all of our 
citizens.
    In recent years, I've been really pleased to see that the assembly 
has responded to our citizens' needs by paying increasing attention to 
another of my absolute priorities, which is tackling terrorism. That's 
why I was so humbled and delighted to be appointed as a vice chair of 
the assembly's Ad Hoc Committee on Countering Terrorism, which was 
created in July 2017. I recognize that the committee offers us an 
important opportunity to make a difference in the international effort 
to address a principal threat to international peace and security.
    Today's event is part and parcel to our engagement and the 
committee's good work and it represents one of the many lines of effort 
to ensure that the best expertise and experiences are available to the 
committee and the assembly as a whole as we tackle this important work.
    Ladies and gentlemen, as the terrorist threats have multiplied in 
their scope and scale, the 57 OSCE members play an increasingly central 
role in facilitating the international efforts to prevent and combat 
terrorism, including addressing conditions that create fertile ground 
for terrorist groups to recruit.
    Today's event will, I hope, shed some light on where OSCE 
participating States converge and diverge on policies to counter 
terrorism and violent extremism. It will also highlight the positive 
work of the OSCE and the OSCE Parliamentary Assembly in this area.
    I'm looking forward to the discussion on the state of transatlantic 
counterterrorism cooperation and to hearing what policy responses and 
best practices emerge from this conversation today.
    However, before I hand it over to Alex and the Helsinki Commission 
staff to moderate, let me say thank you to the OSCE staff for all the 
work you've put into this trip, helping organize meetings for Mr. 
Voridis, as well as this briefing today. I really appreciate the time 
and effort you put in every day.
    But, Mr. Voridis, in your capacity as chairman of the OSCE 
Assembly's Ad Hoc Committee on Countering Terrorism, I have appreciated 
your leadership, energy, and enthusiasm, and really looking for ways 
that we can add value to this discussion. One of your most concrete and 
innovative proposals--and I'm sure you'll say more about this in your 
presentation--has been a questionnaire that the assembly disseminated 
in September, focused on how effectively governments are sharing 
information on individuals crossing borders, who may be a security 
risk.
    I'm really pleased to be able to present to you today an official 
response from the United States delegation to the OSCE Parliamentary 
Assembly. I'm confident that you'll find it fully responsive to the 
intent of your initiative. Our report shows you that we have a strong 
record in making contributions to border control and information 
sharing in the context of preventing and countering terrorism and 
violent extremism.
    Our response also highlights a number of U.S. practices that may 
inform the policies and practices of other OSCE participating States, 
including crucially in the protection of relevant human rights and 
fundamental freedoms.
    We have also sought to be fully transparent by highlighting areas 
in which the United States continues to face challenges in optimizing 
its implementation of, for example, full biometric confirmation for all 
passengers. These challenges described in our report are important 
lessons learned that may benefit other OSCE participating States.
    Terrorism remains one of the most serious threats to international 
peace and security. I look forward to continuing to actively engage in 
our common work and to ensure that the efforts of OSCE participating 
States to address this challenge are making the greatest possible 
difference in the lives of our citizens.
    And so at this point, Mr. Voridis, I'd like to present to you our 
response so that we are fulfilling our obligation, and to thank you for 
your leadership.
    Mr. Tiersky. Thank you, Congressman Hudson, for your leadership in 
the work of the Helsinki Commission and your participation in the work 
that we do and your, really, your drive and your energy and your 
creativity and wanting us to find ways to engage with our international 
partners. Thank you very much.
    Colleagues, Mr. Hudson has asked me to serve as a traffic cop, so 
I'll try to keep my own statements very, very brief.
    I wanted to, in addition to the distinguished audience in the room, 
welcome our audience on Facebook and those who would like to engage in 
our conversation on Twitter, which, of course, is always running--
@HelsinkiComm is our handle.
    I will introduce each of our speakers prior to their remarks, but 
really only telegraphically. Their incredibly distinguished biographies 
are in your packets.
    We'll begin our conversation with Dr. Bruce Hoffman. He is a 
tenured professor at Georgetown. He's served in senior leadership 
positions at RAND. Most importantly, I think, in this context, he's 
served in a congressionally appointed position on a commission related 
to the 9/11 attacks.
    We have asked Dr. Hoffman to provide an assessment, essentially, of 
the evolution of the threat of terrorism that we're all facing, and 
also his perspective on how we're doing in addressing that threat 
together.
    Dr. Hoffman, please, if you would.
    Dr. Hoffman. Thank you very much, Alex, and thank you, Congressman, 
for convening this meeting.
    Let me just briefly discuss where the threat is today as setting 
the stage for Leanne and Member of Parliament Voridis' comments.
    Last January, Secretary of Defense James Mattis announced that 
fighting terrorism would no longer be the pre-eminent national security 
concern of the United States and that instead great power competition, 
particularly the rising challenge from China, from Russia would be the 
primary focus of U.S. national security. This is, of course, being 
repeated by CIA Director Gina Haspel when she spoke a couple of months 
ago at her alma mater. It was also encapsulated in the very important 
National Strategy for Counterterrorism that was released by the 
National Security Council (NSC) in September.
    But when people talk about relegating terrorism to not quite the 
prominence it has had for the past 17 years, I'm often reminded about 
what then General Mattis said in Afghanistan some years ago when he 
said the enemy always gets a vote. And in that respect, I think, at the 
risk of stating the obvious, ISIS clearly is here to stay, at least for 
the foreseeable future, and, just as problematically, al-Qaida hasn't 
gone away.
    The reason I say this is that if we turn back to the national 
security strategy to counter terrorism, released in September, I think 
remarkably, even though the physical manifestation of ISIS was defeated 
on the battlefield in Iraq and in Syria, somewhat astonishing to read 
in that document that, despite that defeat, ISIS still maintains eight 
official branches scattered across North Africa, the Middle East, and 
South Asia as well as Southeast Asia. And in addition to that, still 
maintains some two dozen active terrorist networks. So from a variety 
of different sources, one I think can safely assume that there are 
still 25[,000] to 30,000 ISIS fighters out there. They are obviously 
regrouping and reorganizing to carry on the struggle that Abu Bakr al-
Baghdadi, the group's founder and leader, declared 4 years ago. In 
fact, just the other weekend, we had further evidence of this when in 
the fighting near Deir ez-Zor in Syria, upwards of a hundred members of 
the Kurdish defense forces were killed by ISIS fighters.
    Al-Qaida has been quiet, but al-Qaida's quiescence doesn't mean 
that it has ceased to be a threat. I would argue that al-Qaida has been 
quietly rebuilding, actually taking advantage of the past several years 
and being almost entirely preoccupied and transfixed by the threat of 
ISIS.
    And al-Qaida, even though it's much more in the background, still, 
I think, presents a formidable threat to international peace and 
security.
    Al-Qaida today is present in twice as many countries as it was a 
decade ago--that's over two dozen. It has upwards of 30[,000] to 40,000 
fighters. Just last year, it created a new branch, al-Qaida that was 
dedicated to the liberation of Kashmir.
    So from the two main terrorist organizations, we still face, I 
think, formidable challenges. And I think that's underscored by, 
really, one of the most important threats we face today, and that's the 
surviving foreign fighters, particularly from Iraq and Syria.
    I think according to the most authoritative figures that I've seen, 
which are being produced by the National Defense University, just down 
the road at Fort McNair, some 40,000 individuals from over 120 
different countries gravitated to Iraq and Syria to fight under ISIS's 
banner. Only about a quarter of those, only about 10,000, perished on 
the battlefield, which means that at least 15,000 were able to flee 
Syria and Iraq, approximately 7,500 or so have returned to their home 
countries or were deported to third countries. Fewer than half of that 
15,000 have been imprisoned anywhere. Turkey, I think singularly, 
unhelpfully, deported about 5,000 foreign fighters, but never informed 
the countries of which those fighters are citizens where they were 
deposited, so you have this mass of individuals that have just 
basically disappeared. About 2,500 foreign fighters migrated to the 
Sudan where they have not laid down their arms and where they are 
continuing to prepare for battle. And upwards of about 3,000 migrated 
to other conflict zones. So one way or the other, foreign fighters 
still present an enormous challenge, not least because 8,000, 
approximately 8,000, are still in Syria.
    Bringing that down to more comprehensible terms, one could select 
any country--I happen to know the United Kingdom the best because I've 
lived there, lived there for over a decade and have particularly close 
ties with security and law enforcement personnel there--and it's 
fascinating to look at the problem of foreign fighters just from the 
British lens.
    About 800 British nationals went to fight with ISIS; half that 
number, 400, returned to the United Kingdom. Only a quarter of that 
number, so 100, are actually in prison. Turkey is known to have 
deported 100 British nationals to third countries, Malaysia amongst 
them. They've just disappeared, their whereabouts are completely 
unaccounted for. Britain has revoked the passports of another 150, 
leaving them stateless persons. And roughly, I would say, that leaves 
100 to 150 completely unaccounted for.
    Now, one reason why this is so dangerous is that ISIS's practice 
when it welcomed foreign fighters into its ranks over the past 4 years 
was to force them to turn over their passports. So ISIS, in essence, 
somewhere has tens of thousands, in many cases, completely legitimate 
passports, which they can now mix and match and assign to individuals 
who are--especially if they're not biometric passports--assign to 
individuals with roughly the same physical characteristics, which makes 
them even more difficult to track.
    Another snapshot, I think, that is useful to put the foreign 
fighter threat in context--and also to underscore Congressman Hudson 
and what Member of Parliament Voridis will talk about--is the 
difficulty in tracking foreign fighters across Europe. And here, last 
February, at least for my money, there was a particularly interesting 
case. An individual was arrested in Denmark. He was born in Somalia, he 
had previously lived in the United Kingdom, he carried a Finnish 
passport, had gone off to fight in Syria and then ended up in Denmark. 
In Denmark, he was a member of an ISIS cell that was involved in the 
planning and execution of the May 2016 attack on the Ariana Grande 
concert venue in Manchester, England. If you recall that tragedy, 23 
persons were killed, 143 were injured; nearly half that number were 
children.
    So very briefly, to wrap up--where do we stand in countering these 
threats? I mean, one could argue that we've been very effective on the 
battlefield. We've deprived ISIS of its caliphate, but that the threat 
from both ISIS as well as al-Qaida remains because the ideology and 
their belief system sustain this struggle.
    In terms of how we counter them, well, I was particularly taken 
aback by a comment that the former secretary general of NATO, Anders 
Fogh Rasmussen, made immediately following the Ariana Grande-Manchester 
bombing when he said NATO could do much more to fight terrorists and 
prevent international terrorism from spreading and persons from 
traveling across borders to carry out these attacks. So at that point, 
15 years into the war on terrorism, it was a stunning statement and it 
underscores why international organizations like the OSCE have so much 
to contribute.
    I think what one sees in recent years in the aftermath of the 
killing of bin Laden, in the destruction of ISIS's caliphate, it's--I 
wouldn't say it's a sense of complacency, but rather an easing up on 
the struggle against terrorism, to the extent that we find that 
international responses to terrorism have become much more fractionated 
and countries have become much more self-serving in focusing on 
protecting their own borders and not undertaking absolutely critical 
transnational and international cooperative efforts that are needed to 
counter terrorism, especially as that individual arrested in Denmark 
underscores.
    And let me stop there.
    Mr. Tiersky. Dr. Hoffman, Bruce, thank you so much for setting the 
table for us. I think if anyone was complacent prior to your 
presentation, I think you've shocked us all into a sense of urgency 
here quite directly.
    Our next speaker is going to be Leanne Erdberg, who is the director 
of countering violent extremism at the United States Institute of Peace 
(USIP). There, as you will see in her biography that we've included for 
you, she directs all three of research, practice, and policy of the 
USIP's work on countering violent extremism. Her background includes 
impressive stints at a panorama of Washington agencies who have been 
trying to track this issue and work on it, from the NSC staff to the 
State Department's Counterterrorism Bureau, the Department of Homeland 
Security, and the private sector.
    We've asked Leanne to talk about her thoughts on countering violent 
extremism efforts by the United States, what a productive approach is, 
what is a counterproductive approach, and who is doing what well.
    Leanne, you've heard about the formidable challenges, some 
battlefield successes. I think the rest of this maybe lies in your 
court. Please.
    Ms. Erdberg. Well, thank you so much for having me.
    Thank you, Congressman Hudson, for organizing this.
    And for Member of Parliament Voridis, for being here.
    As mentioned in my bio, I direct the USIP's Countering Violent 
Extremism (CVE) program. I would like to note that the views that I am 
expressing here are my own and not necessarily those of USIP, which 
does not take any policy positions.
    So we heard from Dr. Hoffman how fluid and complex today's 
terrorist landscape is. And the threat has evolved--so, too, must our 
methods to address terrorism.
    A recent Center for Strategic and International Studies report 
found that 17 years after the U.S. declared the global war on terror, 
that today in 2018 there are nearly four times as many Salafi jihadi 
militants as there were on September 11, 2001. And there was an article 
several years ago in The New York Times that really struck me, that was 
doing profiles of various terrorists and said they have backgrounds so 
diverse that they defy a single profile, making it impossible to 
predict the thousands of paths that might lead to terrorism.
    As we recognize that security measures alone cannot combat this 
threat, the U.S. and the international community have scaled up efforts 
to counter violent extremism or, as the United Nations calls it, 
address the conditions conducive to the spread of terrorism. While this 
work probably started 17 years ago, it was really in 2014 and 2015 that 
the U.S. substantially scaled up its efforts to address violent 
extremism, as did the international community.
    I'll take just a few seconds to talk a little bit about, what is 
countering violent extremism?
    The term encompasses many types of efforts, such as the preventive 
aspects of counterterrorism. It's why the new national counterterrorism 
strategy of the United States refers to terrorism prevention. 
Additionally, it also includes interventions that are seeking to 
undermine the attraction of joining an extremist movement and the 
ideologies that promote violence. CVE also tends to cover addressing 
grievances and building the resilience of communities with efforts to 
prevent conflict, strengthen the rule of law, promote peace, inclusion, 
diversity, pluralism, and tolerance.
    So as international CVE efforts are happening, they're happening 
against the landscape of profound vulnerabilities that are facing 
governments, particularly in the most fragile states on the planet. And 
when I say fragile, I'm referring to places where there is a breakdown 
or an absence of a social contract between people and their government. 
So we see, where fragility and violent extremism mix, there is a 
consistent challenge to stability of that country, to security, to 
capacity of building the capacities of the governments and of 
communities, as well as resilience.
    In part, that's why the Congress has charged USIP, an independent, 
bipartisan leader in reducing and preventing conflict, with convening a 
task force on extremism in fragile states. This initiative will 
recommend early next year a comprehensive approach for U.S. policy to 
prevent the underlying causes of extremism in fragile states in the 
Sahel, in the Horn of Africa and the Near East that complements and 
builds off of proposed U.S. existing programs and partnerships.
    From where we stand today--and that's what I'll focus the rest of 
my remarks on--is that any strategy for success must explicitly go 
beyond fighting today's terrorists and do more to prevent tomorrow's 
young people from ever joining in the first place.
    From where I sit at USIP, I believe that the peacebuilding 
community has a lot to offer the counterterrorism community. 
Peacebuilding allows us to develop a more expansive understanding of 
violent extremism and its causes, I think, in three main ways, the 
first being that it prioritizes a locally and contextually specific 
type of information. The second is that it includes community members 
beyond just governments to have a stake in addressing this challenge. 
And the third is that it's long term and sustainable as communities 
don't have an end state, but they're there for the steady state.
    So the peacebuilding practice allows us to also draw upon a wide 
variety of disciplines. Everybody is allowed under the tent. It allows 
us to emphasize specific types of input--those that promote inclusivity 
and strengthen community relations or security actors, those that 
bridge divides and build resilience. Practically speaking, the 
peacebuilding community helps work and build the capacity of civil 
society actors who are engaged in efforts to prevent violent extremism, 
as communities are often on the front lines of prevention, as well as 
the related challenge of rehabilitation and reintegration.
    And so with that in mind, I'll talk about three themes that I think 
will contribute to this comparison of notes across the Atlantic and 
hopefully expand our conceptions about how we understand violent 
extremism.
    The first theme is that, at its core, violent extremism is a deeply 
human problem. And we can easily forget this because today's terrorists 
are so violent and so intolerant and so vicious. But ultimately, it's 
important to remember that ISIS or Boko Haram or al-Shabaab or al-Qaida 
only exist as long as people join them. Terrorists are incredibly adept 
at making the case for violent, radical change and recruiting aggrieved 
individuals to be part of that change. They are able to manipulate 
others. They dehumanize in-group and out-group, they give easy 
solutions to really complicated grievances. They prey upon victimhood 
and make it all locally and culturally specific. Recruiters use 
concepts like trust and belonging and empathy and identity to form 
really strong group bonds.
    Each one of these tactics has significant neural, emotional, and 
psychological components. And these deserve greater value in our 
international strategies to prevent terrorism from happening in the 
first place.
    The second concept that I think helps us expand our understanding 
and hopefully expand our toolkit is that too many international efforts 
that combat terrorism have oversimplified the challenge into an 
isolated, compartmentalized manifestation of grievance. We've all heard 
it's about poverty, it's about religion, it's about messaging. If only 
it was only--it was so easy to be about one thing.
    Communities and societies, as we all know, are complex systems and 
that means many people and the environment are interacting with each 
other in unpredictable ways. So this way of thinking challenges our 
natural instinct to find X diagnosis and Y cure. And so I think that a 
lot of times our plans are developed at a single moment in time and 
designed for a multiyear period of time with limited agility to change 
for those dynamic interactions on the ground. They're also often 
measured for single output rather than a collective outcome.
    So a complexity frame really allows us for interactivity and non-
sequencing of efforts by both government and nongovernment actors, 
those led by civil society. And they could show impacts beyond any one 
effort.
    The third area that I'd like to highlight is the focus on action. 
At USIP we're partnering with neuroscientists and behavioral 
psychologists to help better explain those physiological and cognitive 
dimensions that I earlier mentioned. We believe that this better 
understanding of the psychosocial factors that motivate individuals to 
participate in terrorist activities coincidentally may be the same 
factors that drive participation in nonviolent, resistant movements, 
and that this would help generate more creative policy options.
    If you think about it, if group identity and the perception of 
power are part of what makes terrorist groups attractive, then 
alternatives to give young people vehicles to fill these needs can be 
something that's also good for society overall. To put it more bluntly: 
We cannot message away the attraction of belonging to a community that 
is on a shared mission to resist injustices.
    What we can give people is an opportunity to be part of a larger 
cause, create meaningful social bonds in service of a good mission and 
the dignity of ownership via nonviolent resistance. This allows us to 
showcase the hypocrisy of terrorists in a really interesting way, 
because while terrorists provide agency and power to their recruits, 
they don't deliver on that promise. Nonviolent movements, on the other 
hand, tend to have flatter organizational structures and they deliver 
on the concept of people power--that is, that power is shared amongst 
people instead of allowing very few to exert power over many others.
    Beyond that, nonviolent resistance has been shown empirically to be 
significantly more effective than violence in challenging major 
injustices, such as highly repressive authoritarianism. So knowing that 
participating in a nonviolent struggle is a more effective way to get 
what you want offers additional motivation. Everyone wants to be part 
of the winning team.
    So in conclusion, on both sides of the Atlantic and around the 
world, this field is rapidly evolving. I think that that really calls 
upon us to have more reason to share and to collaborate and to connect, 
as we're all in this generational struggle together. I am hopeful that 
we have a collective ability to plan and to work together, and 
understanding the ways to harness that productively is key to 
populating a much more comprehensive approach to preventing violent 
extremism.
    So maybe I'll stop there and we'll continue the conversation.
    Mr. Tiersky. Leanne, thank you. Thank you so much. I think if 
anyone thought that a solution to the challenge of violent extremism 
would be amenable to a silver bullet by either one actor or in one 
particular variable, I think you've put that straw man to rest, 
certainly. Among the many elements that you put on the table, certainly 
a whole-of-society approach, civil society as an absolutely crucial 
actor, the psychosocial factors that are involved in radicalization--
all of that, and, of course, the point that you ended on, sharing and 
collaborating, brings us clearly to our next speaker.
    And so at this point, I'd like to ask Mr. Voridis if he would say a 
few words about the formidable challenges that he's been hearing about 
and that we've been talking about.
    If I could just say a personal word, I had the great honor to 
accompany Mr. Voridis this morning to the 9/11 Memorial and Museum in 
New York City. And, Mr. Voridis, I would like to thank you for making 
the time to participate in that activity and for insisting that we go 
there. It was an extremely meaningful time for you to be there.
    You'll recall this morning that we were together looking at one of 
the exhibits that had to do with the real-time tracking of the 
movements of the 9/11 hijackers. And as we were looking at these lines 
and dots moving back and forth to various cities, we noticed together 
that the hijackers had traveled from Munich, from Prague. What a stark 
reminder of the need for, and a clear demonstration of the need for, 
transatlantic cooperation in this area.
    Ladies and gentlemen, Mr. Voridis, as you've heard, was appointed 
as the chairman of the Ad Hoc Committee on Countering Terrorisms of the 
OSCE Parliamentary Assembly in July 2017. I would only note from his 
biography also that he served as the leader of the international 
election observation mission to the United States in 2016. He's been 
incredibly active as chairman of this group. He's had a great many 
activities that's he led since his appointment.
    Mr. Voridis, thank you very much for coming from Greece. And 
please, the floor is yours.
    Mr. Voridis. Thank you. Thank you, Alex.
    And at the outset, let me express my deep gratitude to Congressman 
Richard Hudson who helped organize this meeting and this visit. He's a 
great friend. It's a great honor to have him as a vice chair in our ad 
hoc committee. And we deeply appreciate his contributions, his value, 
and the work that he is doing.
    I will come to the work that this ad hoc committee is doing, but I 
must say from the beginning that whatever value this work has is 
actually because people like Congressman Hudson are working hard on 
this issue and they're trying to do their best.
    I must also thank Chairman Wicker because he's also leading the 
U.S. delegation in the OSCE Parliamentary Assembly. And the work that 
the U.S. delegation is doing, especially in general, but also in the 
subject of counterterrorism, is very, very important.
    And, of course, Mr. Hoffman, it was quite exciting to hear your 
views. I must say that after hearing you, the need for international 
coordination and work in this issue becomes very, very clear. And 
everyone who doubts that, I think he should come to one of your 
lectures; then he will know why we should take this thing so seriously.
    And, of course, Ms. Leanne Erdberg, that was indeed an insightful 
presentation showing us the complexity and also the need to have a 
comprehensive approach when we're dealing with this issue.
    I must thank also Alex Tiersky and his team and his colleagues for 
putting all this together. Thank you, Alex, for everything and for the 
great concern and care that you've shown in organizing that.
    Now, ladies and gentlemen, what I must say is the following. One 
question that always we were asking ourselves being in the OSCE 
Parliamentary Assembly--and let me make here a parentheses--the OSCE is 
actually the bigger regional organization for security, grouping 
together 57 different countries and 13--I think 13 or 11--11 partners 
for cooperation. So it's quite a big group. And the Parliamentary 
Assembly actually has delegates, 323 delegates coming from 57 different 
national parliaments.
    I'm saying that because OSCE has, in its core, that's why we are 
saying that there is something special and different for OSCE than any 
other international organization because it's thematic, it has specific 
subject, which is security. It's a security organization.
    So when we are talking about security, and especially at the 
aftermath of terrorist attacks that created a great concern for the 
citizens--and we're talking about Bataclan, we are talking about 
Brussels, we are talking about Spain--so actually, all over, we had, 
after 9/11, a number of very, very murderous attacks, blind attacks, 
with innocent people being killed and severely injured.
    So there was a growing concern in the Parliamentary Assembly--what 
could we parliamentarians do in order to contribute to the 
international fight against terrorism? And as we responded to that, our 
Parliamentary Assembly decided that we would create an ad hoc committee 
that is going to work on that issue.
    Now, creating a committee, maybe someone would think it's not so 
efficient. But again, the question is what the Parliamentary Assembly 
can do. Because the parliamentary assembly for an international 
organization, it's not a legislative body. I mean, we don't have 
legislative powers. We're not parliaments. We are--it is consisting of 
parliamentarians, but it's not a parliament.
    So normally, what do parliamentary assemblies do? They raise 
awareness on the work being carried out by international organizations. 
And that's why, actually, international organizations wanted to have 
all of them, parliamentary assemblies, because at a certain point, 
international organizations were considered to be something a bit 
obscure--you know, ambassadors and executives, people from the 
executive branches came together taking decisions, but no actual 
accountability of what they were doing. So they wanted to be connected 
somehow with society and the idea in order to achieve that was to 
create the parliamentary assemblies. Okay.
    But one must know that the parliamentary assemblies are not 
legislative bodies, so we cannot adopt legislation. So what are they? 
They are international fora for parliamentary dialog. So creating a 
committee would want to say, Okay, do we really need another committee 
talking about terrorism, and what's the added value in that? Is it the 
best thing that you can do about that?
    Now, in order to tackle the thing, the issue of terrorism, there 
are some things that have to be understood and have to be explained to 
the people. And one of it is that we cannot deal with it at a national 
level. This must be understood. Because when something happens to 
Bataclan in Paris, then French people go to the government and they 
say, Why don't you do something, why did you let this happen? And they 
expect the government to deal with that. So one first answer that must 
be provided and explained to the people is that this is not--there is 
no national solution.
    And why there is no national solution? Because the people Dr. 
Hoffman was speaking about, they come all over the world. They travel 
from different countries. They are joined in very peculiar and strange 
ways using the internet and all types of connections. They are being 
financed internationally. So if you try to stop them when they've 
passed your borders, then it's too late, you cannot. You cannot. And 
the example Alex used concerning the terrorist--the horrible terrorist 
attack on 9/11 is exactly that one, because these guys, they traveled 
from Europe, but they had origins elsewhere. So, I mean, this is the 
situation, so there is no national answer to international terrorism. 
So the answer to that, the efficient answer to that, is international 
cooperation, and this leaves a specific role to international 
organizations, to the international community.
    Now, the second thing is there are--and this is, I think, one of 
the credits that we must give to the international community--there are 
quite comprehensive responses to that if you want to go into that, 
because we have U.N. resolutions that describe exactly what the states 
must do. And there are Security Council resolutions coming from the 
U.N. There are directives coming from the European Union. They 
specifically say what the national states must do in order to address 
the issue. And these resolutions, they are mandatory, so they have been 
voted by the states, the states have accepted, they have taken 
commitments, so they must fulfill their commitments.
    So this is where parliaments come again. Parliaments come into play 
because there are things that have to be legislated, but not only 
legislated--there are things, there are policies that have to be 
implemented. Because many times, what we do, what we politicians do, is 
that we make the legislation and then the legislation stays there 
without any further steps, so it's not being implemented.
    So what we intended to do, having this committee, is, of course, 
raise the awareness of what's happening and why the need for 
international cooperation is needed. But the second thing is also to 
try to push for legislation according to international commitments 
where this has not been done. And where it's not been done, it has not 
been done by the states, then start the parliamentary control. That 
means asking questions to the governments why they have not done that 
so far. So I think that now by saying this, this is a very specific and 
distinctive role for parliamentarians. And that was the idea behind the 
creation of this committee.
    Because, Alex, imagine the power of 323 parliamentarians from 57 
different parliaments going back to their governments and asking 
specific questions of what they have done on specific international 
obligations that their governments have undertook. This is, I think, 
the added value of the work that we are doing. And this is something 
which goes much beyond international parliamentary diplomacy or even 
just raising the awareness. This is something very specific.
    And, let's say, one very, very specific example of this work is 
exactly the work that has been delivered by Congressman Hudson to us 
and that we are going to give now further afield to the Transnational 
Threat Department of OSCE in order to be processed and to come back 
with further policy recommendations. So this is actually what we'd like 
to do.
    Now, in order to arrive to that, in order to assess real needs and 
also see what's happening, we had to make some--and we do make and we 
try to extend experiences and we are making what we call field visits. 
Now, for example, the idea is to identify loopholes in counterterrorism 
framework.
    For example--and this is something for Leanne--Belgium has suffered 
a lot and they are trying to deal with it. Also, Belgium has a growing 
number of FTFs, of foreign terrorist fighters, returning. So their main 
concern is that. They are trying to create what they call local 
integrated security cells. That means mobilizing municipalities and 
even, at a certain level, families which may strike some, you know, as 
a bit strange. But families, the families of the terrorists are the 
first to suffer, because the terrorists, the radicalized terrorist, 
leaves the family, but also trying to influence brother, sister, the 
whole environment. So the father and the mother there, they are very, 
very worried of the path being taken by their son or daughter. Okay. So 
you try to use them in order to control, use them in the good sense, to 
cooperate with them in order to control what's happening at the local 
level. So that's the Belgium experience.
    But on the other hand, one last thing, as we don't have very--
although they're working hard, we don't have very concrete results on 
that, so that's a problem. I mean, we--and if you ask them, Okay, you 
are doing all this work and you have social workers and you have 
psychologists and you have people in the community working and you have 
the municipalities with you, but at the end of the day, do you get a 
specific result, does someone change? Is the environment, is it more 
secure? They don't have, so one must think more about that issue.
    Bosnia and Herzegovina, we went there, another very difficult case. 
Why? Because they have migration, they don't have really an efficient 
border security management and they have FTFs. We went to a prison 
there and we tried to talk with one of these terrorists who are being 
kept into prison. One of our members, who is from Norway, a member of 
parliament, of I think Pakistani origin, a Muslim himself, he tried to 
talk to the guy. Very, very disappointing. I mean, this guy, actually 
what he said to this member of parliament from Norway is that, 
normally, I shouldn't be talking to you because you're an infidel and 
you should have been killed. So I don't know what ideas you have of how 
we can approach these persons.
    And the answer being given from the Bosnia and Herzegovina security 
services is actually they do nothing about that, but they just try to 
control them when they get out of prison. So they monitor them and they 
try to control in order not to have any further terrorist acts. But 
that's the answer they give. They think that it's a waste of time and 
money to try to change the mind or deradicalize these persons. But, of 
course, again, policies into prisons in order not for having others 
being radicalized by such prisoners, then, again, this is another 
issue.
    A visit to Morocco, that was very interesting because there you see 
how crucial the education and especially the religious education 
becomes and how, by having people who do not connect religion with 
violence and the total rejection of other religions or other cultures 
plays a crucial role in avoiding radicalization.
    Another thing is actually that--and that's a quite new one what 
I've told you, we're trying now to get the answers from the 
parliamentary control that's already being asked by our members and we 
will process them. And now we think that, besides working with the 
executive structures of the OSCE, which have the capacity of doing it, 
we'd like to have a better cooperation. And we had meetings yesterday 
about that with the United Nations, and I think these went quite well, 
so we're going to be working closely to that.
    Now, the final thing I'd like to say is we do think that we must 
engage more with other parliamentary assemblies, in fact the NATO 
Parliamentary Assembly, the International Parliamentary Union, so we 
broaden the scope of cooperation on that issue.
    And a final point. Normally, parliamentary assemblies, what do they 
do, they make resolutions. So they vote for that. And that has a 
certain value, but, of course, it's not, like, resolving the problem. 
What we did--and I must say that, because I think it stresses the 
importance of the work being done, but also the sensitivity on that 
issue. Now, the Austrian chairmanship of the OSCE had prepared a 
document--in our view, a very comprehensive document--which was dealing 
with all those issues that actually you've raised: border security, 
passenger name records (PNRs), advance passenger informations (APIs), 
biometrics, aviation, return of FTFs, deradicalization, victims and how 
you work with victims in order to relieve tensions, to try to deal with 
possible tensions that could be created if you don't deal with that. So 
all those issues were very inclusive. It was negotiated at the OSCE 
executive structure and it didn't pass. And it didn't pass because 
there they have the unanimity vote, so all 57 states must agree. One 
disagreed, not because they didn't like the text, but for other 
political reasons.
    So what did we do in the Parliamentary Assembly? We took the text, 
we gave it a parliamentary perspective. We pushed it in our 
Parliamentary Assembly. And I must tell you, again, there it's 57 
different parliaments, but also from different ideological and 
political groups.
    And in our assembly, this was passed unanimously, which I think was 
very impressive because it shows that on that issue you could build a 
tremendous consensus that you will not see probably in the governments, 
but parliamentarians could achieve this consensus. And by mobilizing 
parliamentarians, then, I think, we could be optimistic that we are 
going to have an important and major contribution in fighting 
terrorism, this horrible menace that really threatens the security of 
our people.
    Now, thank you very much. That is all of my time.
    Mr. Tiersky. Thank you, Mr. Voridis. Thank you for your excellent 
remarks. I take away first the point that you started with, that this 
is a challenge that cannot be dealt with at the national level. I take 
away your very strong words on the role of parliamentarians and the 
implementation of commitments that have been made elsewhere and in 
pushing efforts that may not succeed in other fora. And I really 
appreciated the word of mobilizing parliamentarians, and I think that's 
exactly what you're doing in your role as chairman.
    I would like to take the moderator's discretion to ask a question 
of each of our panelists.
    I'm eager to get to our audience questions, so please gather your 
thoughts, colleagues, in the audience. I'd like to ask each of you one 
question before I go over to the audience at this time.
    Bruce, you've given us your threat perception, the Bruce Hoffman 
view of where we stand on countering terrorism. And certainly, I 
subscribe to that view completely. I also have the sense that perhaps 
that threat perception is not universally shared across the OSCE space 
or across the world. So I'd like you to give us some thoughts on how 
the national threat perceptions from--I'll take some countries at 
random--let's say, Turkey, you raised Turkey, how does their threat 
perception differ from our own? How does the Russian threat perception 
differ from our own? And how does that inform their approaches to 
countering terrorism?
    Leanne, I'd like to ask you, if I could, to give us some thoughts 
on counter-violent extremism approaches that are counterproductive. 
You've given us some examples of the right path. But clearly, the right 
path is not always followed or else this would be particularly 
straightforward. So if you can talk to a bit about what should be 
avoided in this space, that would be helpful.
    Mr. Voridis, I'm asking, in a sense, the other panelists to talk 
about ways in which the countries that we're all trying to get onto the 
same page differ. Your job is unity and finding the consensus among 
these countries. I'd like to have a sense from you where you think 
there is this kind of weight of agreement that allows some forward 
movement in some specific areas cooperatively across the OSCE space.
    So, please, Dr. Hoffman, if I could ask you to start.
    Dr. Hoffman. Well, I think one of the main problems is that the 
longer the war on terrorism is dragged on, the greater the desire is 
not to have terrorism be a preeminent threat. I mean, it's perfectly 
understandable. The expenditures that enhanced security measures have 
cost all countries, for example, is not--is not declining at all, but 
at a time when national economies and the international economic system 
is more unstable than it's been than in the past, so there's a desire, 
in some respects, to declare victory or to say that we've turned a 
corner and to relegate terrorism to a lesser priority.
    I mean, unfortunately, I've now been studying terrorism, amazingly, 
for 42 years, since I first went to graduate school, and the problem 
has only become more intractable. But one of the patterns that I've 
seen is, in the absence of spectacular terrorist attacks, we tend to 
relax our vigilance, to lower our guard and, therefore, create the 
circumstances where terrorists are emboldened and feel that they can 
strike. So that's why I think international cooperation is so critical.
    The problem, too, is I think that the really astonishing or 
remarkable worldwide unity that existed in the immediate aftermath of 
the 9/11 attacks 17 years ago has consistently eroded. And the two 
countries that you cite are cases in point. Turkey is a member of NATO, 
obviously, but bears an enormous responsibility for the conditions that 
gave rise to the civil war in Syria by allowing the passage of foreign 
fighters, both al-Qaida and ISIS, through its borders and only 
laterally taking action against them. Even today, I think Turkey is 
very selective in that the groups that it--and this is a national 
problem, it's not just unique to Turkey--the groups that it designates 
as the most serious terrorist threats--for instance, the Kurds--receive 
the lion's share of its attention, but then other entities that we 
would judge as very serious threats, like Hay'at Tahrir al-Sham, for 
example, in Idlib province, couldn't exist without at least some tacit 
connivance or permission of Turkey.
    And I think the problem is, is that groups like al-Qaida, 
especially in contrast to the deprivations of ISIS, consciously style 
themselves now and use this term of ``moderate extremists,'' and, 
therefore, appeal to certain countries as a more palatable or 
acceptable alternative to groups like ISIS. So this is very dangerous.
    Insofar as Russia concerned, I mean, their priority, I think, is 
completely different from ours. Their priority is to keep Assad in 
power, which has not been that of the West, which has been to arrive at 
some sensible solution, which I think, unfortunately, the time is long 
past in Syria, but nonetheless it's still very different than 
buttressing the Assad regime, and also deflecting attention away from 
the Caucasus and away from Russia's southern border, which means 
cooperating with Iran, in maintaining Assad. So right there, you see 
this tremendous divergence and interests that would address, at least 
in this case, the core generator of refugee problems of economic and 
political instability amongst many of the United States' Western 
European allies and what has become the crucible for terrorism today, 
which is the civil war in Syria, which shows no sign of letting up and 
is exactly why we have these 40,000 foreign fighters that answered the 
call to join ISIS--I mean, an astonishingly high number--and why 
there's still roughly 20[,000] to 30,000 out there.
    Mr. Tiersky. That's not going to make international cooperation any 
easier.
    Leanne, would you give us some thoughts on ways in which countering 
violent extremism efforts would be counterproductive, please?
    Ms. Erdberg. Sure. So maybe I'll split it into high crimes and 
misdemeanors. [Chuckles.]
    So in the high-crimes department, counterproductive behaviors that 
abuse human rights, have significant civilian casualties--the research 
is just starting to bear out more and more that these are incredibly 
radicalizing factors. And so that when the state takes away human 
rights--and we're talking about the highest type of human rights 
abuses--it just plays directly into the terrorists' hands in terms of 
recruitment and radicalization.
    The other thing is painting opposition political groups as 
terrorists and closing civil society space. This is another way in 
which you're just playing into the terrorists' hand. If you crack down 
on nonviolent political actors, then you are basically sending a 
message that the only way to see change is through violence. And so 
those are, I think, some of the most counterproductive behaviors we can 
see by states.
    In terms of the misdemeanors, I think that there's a lot of space 
in the both academic and practitioners that are, for the first time, as 
you were saying, measuring and trying to figure out what works and what 
doesn't. I think that there has been a lot of new study into what 
things are wholly replicable from one community to another. And so what 
worked in our house is not going to work in Athens, and that is one of 
the challenges of cooperation because there is such an ability to learn 
from each other. But you have to learn and then tailor, and I think 
that tailoring is really incredibly important to not being 
counterproductive, because there's different cultural histories, 
different religious dynamics, different socioeconomic dynamics, and a 
lot of national places that need that level of specificity.
    The last kind of misdemeanor, I would say, is that this fact/
counterfact is persuasive. And so a lot of messaging that just 
basically says the terrorists are wrong, ISIS is wrong, they are bad, 
what was known as the ``counternarrative,'' is just not persuasive. It 
doesn't tap into the same reasons why somebody was open to the message 
in the first place. So I think a focus away from the message itself and 
into the reasons why they were open to the message in the first place 
could have a lot more productivity than just trying to think of it as a 
competition for ideas.
    Mr. Tiersky. Leanne, thank you.
    Let me underline a point that really is central to the mandate of 
the Helsinki Commission. When you talked about the behavior of 
governments toward their own citizens as a major contributing factor to 
radicalization and violent extremism, as everyone here will recall, the 
basis of the Helsinki Commission's mandate, the Helsinki Final Act, was 
a groundbreaking agreement that, among other things, for the first time 
ensured that the human rights of the citizens of any given country were 
not an internal matter of internal concern, only for the government of 
that country, but for all of the participating states, and that all the 
participating states would hold each other accountable to their 
commitments in these areas. So clearly this is an issue that the 
Helsinki Commission, the OSCE, the OSCE Parliamentary Assembly hold 
dear to their hearts.
    Mr. Voridis, how can we come together, given these divergent 
viewpoints?
    Mr. Voridis. For example, one very practical thing: border security 
and aviation control; APIs, PNRs, biometrics. This is not just 
something abstract. If we had them properly implemented, we could trace 
the movements. For example, there was one guy who left Syria. He did 
not travel directly to Europe. He went back to [inaudible]. He stayed a 
while there. And then he traveled to Berlin, and he organized the 
attack to the synagogue in Berlin.
    So why didn't we find this guy? He was on the computer. But why 
didn't we find this guy? Because we were not monitoring [inaudible]. So 
[inaudible] was not considered a place that you should monitor, because 
it was out of the question. No one would come from there to--it was not 
considered to be dangerous.
    Now, if we had implemented PNRs and APIs, then we would trace this 
guy and his movement around. So that's why it's so important to have 
this. This is a particular area where we're trying to push to implement 
the specific thing.
    But I'd like to add something, which is, in our view, in the way we 
approach things, is very important. Sometimes raising the security 
level and trying to have efficient counterterrorist policies seems to 
be contradicting with human rights.
    Now, if we accept that thing, we've already lost the battle, 
because what is being asked by the citizens from us policymakers is to 
guarantee the security. The security is closely connected with their 
way of life and their liberties and their freedom. So when we start to 
jeopardize their freedom in order to guarantee their security, then we 
are already lost. I mean, the terrorists have won.
    Now, I must say that especially, for example, with the PNR, where 
you have personal data--because that's what the PNR is about is 
personal data being kept and being cross-examined in order to find the 
possible threats--now, you do have challenges. And you must find ways 
that this personal data, which is being collected by practically almost 
everyone, is not going to be misused. Now, there are different levels--
I don't want to go into the details of that because it's becoming quite 
technical and quite legal, but there are different levels of guarantees 
that safeguard that this personal data collection is not going to be 
misused.
    So if you want--if someone wants to go into that, there are 
different legal issues that we use that protect, actually, persons by 
their misuse of personal data by security agencies and others. But 
there are ways that we do these things, and these are challenges that 
can be addressed. And again, if we decide to share information, if we 
decide to come up with our international obligations, if the states 
decide that--understand that this cannot be a national issue, I'm quite 
optimistic that we're going to win this war.
    Mr. Tiersky. What a wonderful way that would be to end our briefing 
today, but we will not do that, because I've not given the audience a 
chance to ask questions they might have for our distinguished guests 
here. Perhaps as they gather their thoughts, I'll ask the panelists if 
they have anything they wanted to react to that they've heard from the 
other panelists. Anyone in the audience or any of the panelists, 
anything you'd like to react to?
    Great. Please, in the back.
    Questioner. Hi. Thank you. I'm Erika Schlager with the Helsinki 
Commission staff. And I want to start by saying how much I really, 
really appreciated this presentation. For me, as someone who doesn't 
work closely on this issue, it was extremely informative and I think 
makes a great record for us to be able to share with others, trying to 
understand this issue better.
    By chance, I happened to read an article this morning that said, 
according to the University of Maryland's global terrorist data base, 
Americans living in the United States are more likely to be killed or 
injured in a terrorist attack carried out by a U.S. citizen than a 
foreign terrorist.
    And so I'd like to ask you a question about what are often 
described as domestic terrorist cases, and maybe the Breivik case in 
Norway or the attacks on Roma in Hungary between 2008 and 2010. What's 
the difference between an attack on a synagogue in Berlin where someone 
has crossed borders or an attack on a synagogue in Pittsburgh or a 
church in Charleston?
    So I don't know whether I understand. We're talking about 
transnational components because we're grounded in a multinational 
organization, so that's the logical thing for us to focus on. Is there 
a difference between domestic-terrorism issues and international or 
transnational? Or is it simply just that people have crossed borders?
    Thank you.
    Dr. Hoffman. Certainly all the examples you gave I would classify 
as terrorism. I mean, there's no doubt about that. Certainly they've 
existed for decades. I mean, the causes that give rise to terrorism on 
the right are xenophobia, for example; anti-immigrant sentiments; a 
longing for this intense embrace of a very populist form of 
nationalism. And I think, you know, countering violent extremism has to 
address that nonreligious dimension as well as the religious dimensions 
that obviously, when we're talking about threats from ISIS and al-
Qaida, is the main wellspring for that kind of violence.
    I would say--and I testified, actually, before the 22d of July 
Commission in Norway some years ago in the Breivik case--and I would 
say the same thing that I said then is that it's all terrorism, but one 
has to understand the consequences of domestic-terrorist threats are 
almost always addressed by law enforcement and by legislative remedies, 
quite appropriately so. The problems with transnational threats, at 
least in the 21st century, is they've often required a military 
solution and often a cooperative military solution, for the simple 
reason that there's no police force in the world that could confront 
30,000 terrorists in al-Qaida or ISIS, for example.
    Second, too, I think there's a difference between these types of 
movements is that with the rise of ISIS and with the emergence of al-
Qaida, we've seen terrorism organized on a grander scale than ever in 
the past; the fact that despite the loss of its caliphate and despite 
the serial military setbacks that ISIS has suffered, that it still has 
eight official branches that function and that exist in some form of 
coordination.
    And that's what one sees, fortuitously, and thank God, with a lot 
of domestic incidents of violence is that they're outbursts from 
generally, as we call them, lone wolves or single actors. It's rare 
that they're part of some sustained, organized, orchestrated campaign. 
Definitely there's an orchestrated hate campaign.
    What I'm talking about is when you jump from the actual 
encouragement of violence to the commission of acts of violence. And I 
think that's what separates the two is that the commission of acts of 
violence, often by these lone actors, have been one-offs. Once the 
person is arrested, there's no organization or movement giving them 
orders or deploying them. And that's why I think the threat from al-
Qaida and ISIS is being much more of a strategic challenge and much 
more intractable.
    But I think the fundamental question you're asking is, you know, is 
one worse than the other or equally as bad? They all claim the lives of 
innocent people. They all victimize individuals because of their 
ethnicity or their religion or their nationality. And they, within 
them, carry the seeds of exactly the forms of intolerance and hatred 
that gives--that if it's not addressed on an individual basis by these 
lone wolves, gives rise or has the potential certainly to give rise to 
more sustained and more organized manifestations of violence.
    Ms. Erdberg. I don't have very much to add, but maybe I'll 
highlight one point, which is the group dynamic versus the nongroup 
dynamic of some of the examples you gave. And there are examples out 
there of domestic-terrorism incidents that are more highly group 
dynamics and they're part of more organizational structures. But from 
the prevention perspective, it's different to try and find lone wolves 
than it is to try and address group dynamics and the need for belonging 
and identity and the ways in which groups form together.
    And so in the much larger terrorist groups around the world, we see 
different dynamics as being part of a group than what somebody's 
individual motivations are. And so I just think it's something that, in 
the law-enforcement realm, makes it really difficult to find lone 
wolves is partly because there is less of a group dynamic.
    Mr. Voridis. But again, I think this is the main difference and 
possibly difficulty here, because, for example, lone wolves we did have 
in Madrid. In Madrid you didn't have something which was directly 
connected to ISIS. You had one guy who was actually 20, 21. And this 
guy came from a very integrated background; father was a doctor. He had 
a relationship with a girl who was Spanish, a Catholic girl. And he was 
attending a very moderate mosque; so no, let's say, signs of anything. 
And he just got into a car and he started running into people.
    So this is an example of a lone wolf. Now, if you ask me why this 
is happening, then probably you would have to go to the pattern that 
Leanne was using, you know, for general reasons, because he was 
radicalized on the internet, because whatever. It's very--you don't 
have a very straightforward answer to what happened to him in this 
particular case.
    But this thing should be differentiated, because, on that, what can 
you do? You should raise the awareness. You should try to make general 
policies. You should have a comprehensive strategy against the violent 
extremism and radicalization that possibly lead to terrorism. So you do 
have that. And this is described in two U.N. resolutions.
    But, of course, this is something completely different to having 
organized groups, for example, that they have been financed and that 
the one resolution that now is promoted in OSCE by the Italian 
chairmanship, by selling antiquities and cultural heritage, that's how 
they make money in order to finance terrorist activities. This is a 
different type of situation.
    So the lone wolf could exist for many reasons. And we could ask why 
the Norwegian case, why this happened, and we could come up with some 
answers. But, of course, this is a different thing from ISIS and the 
al-Qaida, which are organized groups, with what happened 9/11; 9/11 it 
was not some guys that woke up one morning and they decided to do that. 
They were planning that, you know, years. And they were preparing 
themselves and they were being educated to do that. They were training. 
So it's a completely different story.
    And, of course, as you know, the threat is much bigger. But on the 
other hand, it's very difficult to deal with lone wolves from a 
security point of view, because a lone wolf could be anyone. I mean, if 
he's coming out from his couch and he could start killing people.
    So there are terrorist attacks. From the legal point of view, these 
are terrorist attacks. But on the other hand, you could have 
different--you need to have a different approach to deal with that.
    Mr. Tiersky. Thank you all.
    I'd like to do one more thing with this briefing and challenge at 
least two of our panelists to use their imaginations now. We're going 
to imagine that Mr. Voridis has gone to sit next to Mr. Hudson and he 
is now a member of our audience. And to the two other panelists that I 
have at the table here, I'd like to close our briefing by giving you 
the opportunity to maybe distill your messages to some recommendations 
that you might have for Mr. Voridis in his capacity in trying to 
wrangle 57 member states in making a difference on this challenge. And 
you also have Mr. Hudson, who is a key leader in that context, but, of 
course, he's also a Member of Congress.
    So if you have recommendations for these two crucial lawmaking 
bodies and policy coordination bodies on this set of issues, this would 
be the time to offer them if you would. And forgive me, we haven't 
coordinated this in advance. But you're with me in imagination. Mr. 
Voridis is no longer a panelist. He is now an audience member.
    Can we start with you, Dr. Hoffman?
    Dr. Hoffman. Well, it's easier, I think, to identify the issues 
than to specifically zero in on the legislation.
    First and foremost, whether it's in Europe or the United States, I 
mean, there is no complete military solution to terrorism. But that 
doesn't mean that you can afford to neglect using military force to 
address what is one of the main generators and what sustains terrorism, 
and that's access to sanctuary and safe haven.
    So obviously invading countries has not worked. But by the same 
token, ignoring the problems and allowing these branches of, whether 
it's ISIS or al-Qaida, to continue to multiply ensures that the 
terrorism problem isn't going away. So it's addressing these problems, 
learning from the lessons of the past two decades, and using military 
force prudently and effectively. And I think that's a collective 
endeavor. It's not something that the United States should be doing in 
isolation. There's regional and local partners that have to be built 
into it. That's the first thing; so making sure that the military 
aspect isn't neglected.
    Certainly we're confronted by a world with a multiplicity of 
threats that are both kinetic ones and non-kinetic ones. But it means 
that I think always not neglecting terrorism as well and not forgetting 
that many of the problems we see today in terms of state-sponsored 
terrorism means that this kind of violence isn't only the purview of 
non-state actors. It's becoming more acceptable and more common for 
states to be involved in the sponsorship of terrorism. So it's 
appropriately sanctioned.
    Fortunately, we have the right legislative tools in the United 
States with the foreign terrorist organizations. I would argue, in 
response to the question that we had, is that there has to be a similar 
approach, too, in countering domestic terrorism. And that's one of the 
problems that we have. We often differentiate between hate crimes and 
terrorism. I mean, they're both equally odious, but there's different 
legislative authorities that allow for the designation of international 
or foreign terrorist groups as terrorists, but we lack that capability 
domestically.
    And then, very briefly, I think Member of Parliament Voridis has 
talked about the importance of tracking travelers and tracking 
terrorists. I mean, this is absolutely critical; not only foreign 
fighters after they've been trained or after they've been bloodied in 
battle, but we have to be much better at preventing terrorists from 
converging at a cynosure of violence like Syria became, like Libya is 
today, like parts of South Asia remains.
    And then, finally, I would say that we were very effective in the 
immediate aftermath of 9/11 in stanching the flow of money to terrorist 
organizations by cracking down on charities.
    It's an entirely different world today. And this is also where I 
think international cooperation has frayed. There's still a thriving 
market, for example, in antiquities that have been looted from Syria, 
from Palmyra and other places, that are being trafficked across Western 
Europe and the Balkans.
    So once again, we're relooking at how foreign terrorist financing 
has changed since 9/11 and what new measures need to be put into place 
to counter it, because ISIS wouldn't have been allowed to emerge and to 
flourish if it didn't have a source of revenue and income. And it 
wouldn't continue to exist today without those sources.
    Ms. Erdberg. So I'll align myself with the first thing he said, 
which is identification of the issues is much easier than the 
legislative fixes.
    On the safe-haven question, I think that violent extremism acts 
differently in fragile states than it does in the United States or in 
Western Europe. And so I think that, you know, we're really pleased at 
USIP to be hosting this bipartisan Task Force on Extremism in Fragile 
States. But really stay attuned to the ways in which you can address in 
the places where the government does not protect the citizen and the 
places where, in fact, there are so many governance challenges that 
it's really difficult to think about violent extremist groups and 
terrorist groups as being a legitimate political actor in these spaces. 
And so that requires a different type of toolkit than in places where 
you have a real legitimacy. You may have challenges to legitimacy, but 
for the most part you have a legitimate government-citizen contract.
    The second thing I think that I'd love to do a plug for is academic 
and empirical research about violent extremism and terrorism, and so 
not those who are self-invested in being part of the industry of 
counterterrorism, but from universities around the world really 
studying this from an academic and empirical perspective. They can see 
things. They can test hypotheses in ways in which a lot of times those 
who have a zero-risk tolerance for failure cannot always see it. So 
that would be probably the second place in talking about governments. 
No governments can fail on this.
    The third--and Mr. Voridis mentioned this a little bit in some of 
his examples throughout Europe--but the rehabilitation and 
reintegration imperative is coming. The 35,000 folks that Dr. Hoffman 
referred to, not all of them have a lifelong conviction to be part of 
these violent extremist groups for the rest of their life. There are 
some that have voluntarily defected from the groups. There are some 
that just don't--no longer want that to be part of their lives.
    There have to be ways in which, it's both prosecutorial, 
alternatives to incarceration, but also in the rehabilitation and 
reintegration, and to not forget the communities. And you mentioned the 
communities. But what does reconciliation look like in those 
communities that have to welcome back somebody who has committed--who 
has been part of a group that has committed horrible atrocities. And so 
that level of community health and understanding is also part of it.
    And the last part is, there is such an incredible importance in the 
API and PNR and the information sharing. What the job for those of us 
in the prevention field is, is to make sure that those lists aren't 
getting longer every single year. And so we don't have to be hiring 
more and more border-security guards and folks in every single country, 
because the lists are exponentially growing. And so we have to still 
keep that focus on prevention, even as we put resources toward the very 
legitimate law-enforcement ways in which we're addressing the problem 
today, and focus on preventing tomorrow's list from growing.
    Mr. Tiersky. Mr. Voridis, Mr. Hudson, your to-do list is long. It 
is challenging. And I thank you both for your leadership in making 
progress on this to-do list and on fighting this challenge.
    I would like to thank our panelists for informing the work of the 
Helsinki Commission, our commissioners, and the OSCE Parliamentary 
Assembly in this critical area of work that sadly does not appear to be 
going away any time soon. But I think it was Mr. Voridis who said this 
is a battle we can and must win.
    Thank you all for being here. With that, I will conclude this 
Helsinki Commission briefing.
    Thank you very much. [Applause.]
    [Whereupon, at 5:30 p.m., the briefing ended.]                                         

                        <all>




  

            This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe (OSCE).

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                      www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
